U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

March 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Gerardo Serrano v. U.S. Customs and Border Protection et al.,
No. 20-768
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 1,
2020, and placed on the Court’s docket on December 4, 2020. The government’s response is
currently due, on two extensions, on March 5, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including March 16, 2021, within which to file the government’s response. This extension is
necessary because the attorneys with principal responsibility for final preparation of the
government’s response have been heavily engaged with the press of other matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-0768
SERRANO, GERARDO
U.S. CUSTOMS & BORDER PROTECTION, ET AL.

THOMAS G HUNGAR
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVE., NW
WASHINGTON, DC 20036
202-955-8500
THUNGAR@GIBSONDUNN.COM
ROBERT EVERETT JOHNSON
INSTITUTE FOR JUSTICE
16781 CHAGRIN BLVD.
#256
SHAKER HEIGHTS, OH 44120
703-682-9320
RJOHNSON@IJ.ORG

